<html>
<title> - H.R. 3434, H.R. 3449 and H.R. 4953</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                   H.R. 3434, H.R. 3449 and H.R. 4953

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 16, 2002

                               __________

                           Serial No. 107-139

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

80-723              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 16, 2002....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands, Prepared statement on H.R. 3434, H.R. 3449, 
      and H.R. 4953..............................................    14
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia..........................................    11
        Prepared statement on H.R. 3449..........................    13
    Hooley, Hon. Darlene, a Representative in Congress from the 
      State of Oregon............................................     5
        Prepared statement on H.R. 3434..........................     7
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 3434, H.R. 3449, and H.R. 4953     2
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     2
        Prepared statement on H.R. 4953..........................     4

Statement of Witnesses:
    Anderson, Robert, Deputy Assistant Director, Minerals, Realty 
      and Resource Protection, Bureau of Land Management, U.S. 
      Department of the Interior.................................    14
        Prepared statement on H.R. 4953..........................    16
    Cooper, Judge Scott R., Crook County Court, Crook County, 
      Oregon.....................................................    21
        Prepared statement on H.R. 4953..........................    30
        Letters submitted for the record.........................    24
    Masica, Sue, Associate Director, Park Planning, Facilities 
      and Lands, National Park Service, U.S. Department of the 
      Interior...................................................    18
        Prepared statement on H.R. 3434..........................    19
        Prepared statement on H.R. 3449..........................    20

Additional materials supplied:
    Front, Alan, Senior Vice President, Trust for Public Land, 
      and Ralph Grossi, President, American Farmland Trust, 
      Statement submitted for the record on H.R. 3449............    12
    Salisbury, John, President, McLoughlin Memorial Association, 
      Statement submitted for the record on H.R. 3434............     8
    Williams, John, Mayor, City of Oregon City, Oregon, Statement 
      submitted for the record on H.R. 3434......................    10


  LEGISLATIVE HEARING ON H.R. 3434, TO AUTHORIZE THE SECRETARY OF THE 
  INTERIOR TO ACQUIRE THE McLOUGHLIN HOUSE NATIONAL HISTORIC SITE IN 
   OREGON CITY, OREGON, AND TO ADMINISTER THE SITE AS A UNIT OF THE 
NATIONAL PARK SYSTEM, AND FOR OTHER PURPOSES; H.R. 3449, TO REVISE THE 
 BOUNDARIES OF THE GEORGE WASHINGTON BIRTHPLACE NATIONAL MONUMENT, AND 
   FOR OTHER PURPOSES; AND H.R. 4953, TO DIRECT THE SECRETARY OF THE 
   INTERIOR TO GRANT TO DESCHUTES AND CROOK COUNTIES IN THE STATE OF 
               OREGON A RIGHT-OF-WAY TO WEST BUTTE ROAD.

                              ----------                              


                         Tuesday, July 16, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
room 1334 Longworth House Office Building, Hon. George 
Radanovich, [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon and welcome to the 
Subcommittee on National Parks, Recreation & Public Lands.
    Today we will be receiving testimony on three bills, H.R. 
3434, H.R. 3449 and H.R. 4953.
    Our first bill, introduced by Congresswoman Darlene Hooley 
of Oregon, would authorize the Secretary of the Interior to 
acquire the McLoughlin House National Historic Site in Oregon 
City, Oregon, and to administer the site as a unit of the 
National Park System.
    Our second bill is H.R. 3449, introduced by Congresswoman 
Jo Ann Davis of Virginia. That would authorize the boundary 
expansion of the George Washington Birthplace National Monument 
in Westmoreland County, Virginia by up to 115 acres.
    Our third bill will be H.R. 4953 introduced by our 
Committee colleague, Mr. Greg Walden. It is to direct the 
Department of Interior to grant to Deschutes and Crook Counties 
in the State of Oregon a right-of-way to West Butte Road, a 
critical north-south route in central Oregon.
    Before turning time over to Mrs. Christensen, I would ask 
unanimous consent that Ms. Hooley, Ms. Davis and Mr. Walden be 
permitted to sit on the dais following their statements.
    Without any objection here, it is so ordered. I think we 
will begin the hearing without an opening statement from Mrs. 
Christensen, who I understand is on her way.
    [The prepared statement of Mr. Radanovich follows:]

      Statement of The Honorable George P. Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Good afternoon. The hearing will come to order.
    This afternoon, the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony on three bills--H.R. 3434, H.R. 
3449 and H.R. 4953.
    Our first bill, H.R. 3434, introduced by Congresswoman Darlene 
Hooley of Oregon, would authorize the Secretary of the Interior to 
acquire the McLoughlin House National Historic Site in Oregon City, 
Oregon, and to administer the site as a unit of the National Park 
System.
    Our second bill, H.R. 3449, introduced by Congresswoman Jo Ann 
Davis of Virginia, would authorize the boundary expansion of the George 
Washington Birthplace National Monument in Westmoreland County, 
Virginia, by up to 115 acres.
    Our last bill, H.R. 4953, introduced by our Committee colleague, 
Congressman Greg Walden, would direct the Secretary of Interior to 
grant to Deschutes and Crook Counties in the State of Oregon a right-
of-way to West Butte Road, a critical north-south route in central 
Oregon.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Ms. Hooley, Ms. Davis, and Mr. Walden be 
permitted to sit on the dais following their statements. Without 
objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 
    Mr. Radanovich. Mr. Walden, welcome to the Committee. If 
you would like to begin your testimony, we will do 5 minutes 
each and then open it up for questions. Then again, you are 
more than welcome to join us on the dais following that.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you very much, Mr. Chairman. I 
appreciate your scheduling this hearing on H.R. 4953.
    H.R. 4953 would direct the Secretary of Interior to grant 
Deschutes and Crook Counties a right-of-way to West Butte Road 
across land that is currently managed by the Bureau of Land 
Management. The right-of-way would coincide with the current 
roadway and would thus allow the counties to make improvements, 
thereby creating an improved transportation route for Central 
Oregon.
    This improvement would enhance the connection from Oregon's 
Highway 126 to U.S. Highway 20 and improve access to eastern 
Oregon and neighboring States to the east. I introduced this 
legislation to expedite the right-of-way exchange in an effort 
to address the current economic development and transportation 
needs of central Oregon in a timely fashion.
    Mr. Chairman, Crook County, a partner in the exchange and a 
community that is tied to natural resource production, has been 
hard hit by six sawmill closures resulting in the loss of 22 
percent of the family wage jobs in this community over the past 
10 years.
    Like so many of the natural resource based-communities 
across the nation, Crook County is actively looking for the 
means to revitalize its economy. This exchange would allow the 
Federal Government to assist the community by improving its 
transportation infrastructure.
    With the establishment of a right-of-way, the county and 
State would be able to construct a paved connection from 
Highway 126 to Highway 20. This was allow traffic that is 
currently bottlenecked in another part of Central Oregon to 
pass through Prineville. I am hopeful that this improved route 
will attract desperately needed businesses and jobs to Crook 
County.
    Mr. Chairman, for Deschutes County, passage of this 
legislation would provide a traffic relief valve for the 
congested Highway 97. In a recent study conducted by the Oregon 
Department of Transportation, it was determined that 12,700 
trucks and cars travel through an ODOT automatic traffic 
recorder station located at the point traffic would turn off of 
Highway 97 and utilize the West Butte route.
    Thirteen percent of the total traffic consisted of large 
trucks, of which 1,651 pass through this intersection per day. 
Though it has not yet been determined how much traffic would 
take advantage of the new route, evidence indicates that even a 
small percentage would be a tremendous benefit in relieving 
traffic congestion along U.S. Highway 97.
    At the southern connection point at West Butte to Highway 
20, ODOT conducted a separate study, assuming that 25 of all 
truck traffic on U.S. 20 would use the West Butte Route. The 
average daily truck traffic on U.S. 20 is estimated to be 
around 326. Roughly 81 trucks a day would use the West Butte 
route, bypassing the heavy traffic congestion of Bend and 
Redmond.
    Over 10 years ago, Deschutes County and the BLM recognized 
the need to increase the transportation infrastructure in 
Central Oregon. However, in 1989, a resource management plan 
failed to anticipate it and address the rapid population growth 
that has occurred in Bend, Redmond and the surrounding areas.
    Currently, a new Upper Deschutes Resource Management plan 
is being drafted by the BLM to address transportation issues as 
part of the updated plan. However, Mr. Chairman, I am concerned 
the BLM timeline will delay the right-of-way exchange causing 
undue economic hardship in Crook County while failing to 
address Central Oregon's transportation problems in a timely 
manner.
    This legislation has the support of the cities of 
Prineville, Bend, Redmond, Crook and Deschutes Counties and the 
Oregon Department of Transportation and the Central Oregon 
Transportation Commission.
    These groups are working hard to identify and improve 
transportation routes through central Oregon. It is my 
privilege to assist them in their efforts. I appreciate the 
opportunity to make the case before this Committee.
    Mr. Chairman, this legislation will really help on the jobs 
front. Few counties in Oregon have been hit harder of late than 
Crook County. This will reduce the amount of time trucks have 
to spend traveling. I am told that one of the mills there has 
even indicated in writing that if this change were to occur and 
the route were to be shortened by upwards of 35 miles, that 
they would be able then to reopen a saw mill that handles 
really small timber.
    So, it really does have a major impact, not only in the 
timber industry, but on the tire industry where the 
headquarters for LaScheib Tire Centers. Their trucks have to 
make this detour route, if you will, around what could be a 
much better route and it would save time, would save energy and 
would probably save and really create jobs.
    In closing, Mr. Chairman, I am honored, too, to have with 
me today the judge from Crook County, Scott Cooper, who has 
really spearheaded this effort. He is new to office, been 
there, I think, 2 years now. He has really taken this bit in 
his mouth. He flew all night to be here to join us today. So, 
after my colleagues are finished, I look forward to the 
opportunity to hear his comments today on this issue.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Walden follows:]

 Statement of The Honorable Greg Walden, a Representative in Congress 
                        from the State of Oregon

    Thank you, Mr. Chairman, for holding this legislative hearing to 
discuss H.R. 4953. I commend you for scheduling this hearing, and I 
look forward to working with you to get this important measure to the 
House floor. I would also like to thank my Oregon colleagues, Senator 
Wyden and Senator Smith, for introducing companion legislation in the 
Senate and for their efforts to work in a bipartisan fashion to address 
the most pressing issues facing central Oregon.
    H.R. 4953 would direct the Secretary of the Interior to grant 
Deschutes and Crook counties a right-of-way to West Butte Road across 
land currently managed by the Bureau of Land Management (BLM). The 
right-of-way would coincide with a current roadway and would, thus, 
allow the counties to make improvements, thereby creating an improved 
transportation route for central Oregon. This improvement would enhance 
the connection from Oregon's Highway 126 to U.S. highway 20, improving 
access to eastern Oregon and neighboring states to the east.
    I introduced this legislation to expedite the right-of-way exchange 
in an effort to address the current economic development and 
transportation needs of central Oregon in a timely fashion.
    Mr. Chairman, Crook County, a partner in the exchange and a 
community that is tied to natural resource production, has been hard 
hit by six sawmill closures, resulting in the loss of 22% of the family 
wage jobs in the community over the past decade. Like so many of the 
natural resource based communities across the nation, Crook County is 
actively looking for the means to re-vitalize its economy. This 
exchange would allow the Federal Government to assist the community by 
improving its transportation infrastructure.
    With the establishment of a right-of-way, the county and state 
would be able to construct a paved connection from Highway 126 to 
Highway 20. This would allow traffic that is currently bottlenecked in 
another part of central Oregon to pass through Prineville. I am hopeful 
that this improved route will attract desperately needed businesses and 
jobs to Crook County.
    Mr. Chairman, for Deschutes County, passage of this legislation 
would provide a traffic ``relief valve'' for the congested highway 97. 
In a recent study conducted by the Oregon Department of Transportation 
(ODOT), it was determined that 12,700 trucks and cars travel through an 
ODOT automatic traffic recorder station located at the point traffic 
would turn off of Highway 97 and utilize the West Butte route. 13% of 
the total traffic consisted of large trucks of which 1,651 pass through 
this intersection per day. Though it has not yet been determined how 
much traffic would take advantage of this new route, evidence indicates 
that even a small percentage would be tremendously beneficial in 
relieving traffic congestion along U.S. Highway 97.
    At the southern connection point of West Butte to Highway 20, ODOT 
conducted a separate study assuming that 25% of all truck traffic on 
U.S. 20 would use the West Butte route. The average daily truck traffic 
on U.S. 20 is estimated to be around 326. Roughly 81 trucks a day would 
use the West Butte route, bypassing the heavy traffic congestion of 
Bend and Redmond.
    Over 10 years ago, Deschutes County and the BLM recognized the need 
to increase the transportation infrastructure in central Oregon. 
However, a 1989 Resource Management Plan created failed to anticipate 
and address the rapid population growth that has occur in Bend, 
Redmond, and surrounding areas. Currently, a new Upper Deschutes 
Resource Management Plan is being drafted, by the BLM, to address 
transportation issues as part of the update plan. However, Mr. 
Chairman, I am concerned that the BLM timeline will delay the right-of-
way exchange, causing undue economic hardship in Crook County, while 
failing to address central Oregon's transportation problems in a timely 
manner.
    This legislation has the support of the Cities of Prineville, Bend, 
and Redmond, Crook and Deschutes County, the Oregon Department of 
Transportation and the Central Oregon Transportation Commission. These 
groups are working hard to identify and improve transportation routes 
through central Oregon. It is my privilege to assist them in their 
efforts.
    Mr. Chairman, I thank you once again for holding this hearing and I 
look forward to working with all my colleagues in the House to pass 
this critical piece of legislation for the residents of central Oregon.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Walden.
    Now, we will move on to the Honorable Darlene Hooley from 
Oregon as well, on H.R. 3434, Darlene, you may begin.
    Ms. Hooley. Thank you. This must be Oregon day today.
    Mr. Radanovich. It is Oregon day, yes.
    Ms. Hooley. Thank you, Mr. Radanovich, for agreeing to work 
with me on this bill. I ask that my entire written statement be 
included in the record. I also ask that I be allowed to submit 
testimony on behalf of John Salisbury, President of the 
McLoughlin Memorial Association and John Williams, Mayor of the 
city of Oregon City who were not able to travel to Washington, 
D.C. to testify today.
    Mr. Radanovich. There being no objection, it is so ordered.

STATEMENT OF THE HONORABLE DARLENE HOOLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Ms. Hooley. Thank you. I come before this Committee today 
to reiterate my support for a bill that not only preserves an 
important piece of Pacific Northwest history, but arguably has 
considerable national historic importance as well.
    John McLoughlin cast a giant of a shadow on the early 
development of the Oregon frontier. For 21 years, his powerful 
voice was the only influence of law and order over an empire 
two and a half times the size of Texas.
    He had absolute control and he maintained it peacefully and 
profitably with a balanced sense of justice, with an 
overwhelming sense of compassion and generosity beyond 
reproach, it is of little wonder that he was regarded by Native 
Americans as a great white eagle. By the way, his statue is in 
the Statuary Hall.
    John McLoughlin did indeed walk taller and cast a greater 
shadow that ever fell so humbly on the changing face of Oregon. 
His duties were to create a mercantile arm of the British 
Government to monopolize the fur trade business and maintain 
peace among the numerous tribes of Indians.
    Finding the facility at Astoria to be grossly rundown, 
unfertile and too far from inland trade facilities, McLoughlin 
moved the Northwest Headquarters to a move favorable location 
on the northern side of Columbia called Fort Vancouver. The 
fort flourished under the leadership of Dr. McLoughlin.
    Without any type of military force, he was able to maintain 
law and order by his own personality and by the cooperation of 
his officers and employees. Defying company policy, Dr. 
McLoughlin was sympathetic to the plight of settlers and often 
offered them aid.
    Often arriving sick and hungry and without provisions, his 
kindly heart extended them credit, fed and clothed them, cared 
for the sick and supplied them with seed for farming.
    His personal decision to provide supplies and support to 
the American settlers coming over the Oregon Trail, contrary to 
his orders from the Hudson Bay Company Governor, proved to be 
critical to the peaceful settlement of the territory in favor 
of U.S. claims.
    After resigning his position with Hudson Bay Company, he 
purchased the company's land at Walamath Falls in Oregon City 
and his family moved into the newly built home. McLoughlin 
remained a public figure during his retirement and became U.S. 
citizen in 1849. He donated land for a jail, parks, a female 
seminary and in 1851 he was elected Mayor of Oregon City. He 
died in his home 6 years later.
    In 1941, the McLoughlin house was designated a National 
Historic Site, the first such designation in the West. In 1957, 
Dr. John McLoughlin was named ``Father of Oregon'' by the 
Oregon State legislature. Fort Vancouver and the McLoughlin 
House National Historic Site have a long and storied history 
together.
    The intent of my legislation is to see this history 
continued by expanding the boundaries of Fort Vancouver to 
include the McLoughlin House National Historic Site. Currently, 
the McLoughlin House National Historic Site is maintained and 
managed by a nonprofit McLoughlin Memorial Association.
    When the McLoughlin House faced demolition in 1909, the 
Memorial Association was formed and money raised to move the 
house to a public part atop a bluff. McLoughlin's Home opened a 
museum in 1910. For almost 100 years the association has done 
admirable work to preserve and maintain this historic treasure 
so thousands of people can continue to tour the site.
    However, over the last several years the association has 
been unable to raise the funds required to provide the needed 
maintenance and upkeep of the property that is now in jeopardy 
of falling into disrepair. The McLoughlin House National 
Historic Act would do what we believe should have occurred over 
60 years ago and that is include these properties as part of 
the National Park System to be managed by the National Park 
System.
    It is again my intent that this would be done not by 
creating a new unit of the National Park System, but rather by 
simply including the McLoughlin House into the boundaries of 
the Fort Vancouver National Historic Site.
    I believe that including the McLoughlin House into the 
boundaries is the only way to preserve in perpetuity the 
cultural, education and historical benefits of this historic 
site for future generations.
    This legislation has the support of city and county 
officials, the McLoughlin Memorial Association and the entire 
Oregon delegation. The citizens of Oregon City approved a 
ballot measure by over 80 percent that would grant the National 
Park Service an interest in the city property on which the 
McLoughlin House now sits.
    I again thank you for consideration of the bill and thank 
the Committee for your time.
    Mr. Radanovich. Thank you very much, Ms. Hooley.
    [The prepared statement of Ms. Hooley follows:]

Statement of The Honorable Darlene Hooley, a Representative in Congress 
                        from the State of Oregon

    I would first like to convey my sincere appreciation to Chairman 
Radanovich for so generously agreeing to work with me on H.R. 3434, The 
McLoughlin House National Historic Site Act and allowing it be heard 
before the Subcommittee today.
    I come before this Committee today to reiterate my support for a 
bill that not only preserves an important piece of Pacific Northwest 
history, but arguably has considerable national historical importance 
as well. Before I delve into the specifics of the legislation, I'd like 
to take a few moments and reflect upon the life of the man for which 
this legislation bears his name, Dr. John McLoughlin.
    Standing six feet four inches, John McLoughlin cast a giant of a 
shadow on the early development of the Oregon frontier. For twenty-one 
years his powerful voice was the only influence of law and order over 
an empire two and a half times the size of Texas. He had absolute 
control, and he maintained it peacefully and profitably with a balanced 
sense of justice. With an over-whelming sense of compassion and 
generosity beyond reproach, it's of little wonder that he was regarded 
by Native Americans as, ``The Great White Eagle.'' John McLoughlin, did 
indeed, walk taller and cast the greatest shadow that ever fell so 
humbly on the changing face of Oregon.
    McLoughlin was born in 1784 outside of Quebec, Canada. When 
McLoughlin was only 14 years old, he began an apprenticeship with a 
doctor and in 1803, at the youthful age of 19, was granted his license 
to practice surgery and pharmacy. Shortly thereafter Dr. McLoughlin 
obtained an appointment as medical officer for the North West Company, 
fierce competitor of the Hudson's Bay Company in the fur trade. 
McLoughlin continued his employment and partnership with the North West 
Company until 1821, at which point it was absorbed by the Hudson's Bay 
Company in a merger.
    In 1824, McLoughlin arrived at Fort George, now called Astoria, 
Oregon near the mouth of the Columbia River, to further establish an 
administrative headquarters and supply depot for the ever expanding 
Hudson's Bay Company. In part, his duties were to create a mercantile 
arm of the British government, to monopolize the fur trade business, 
and maintain peace among the numerous tribes of Indians. Finding the 
facility at Astoria to be grossly rundown, unfertile and too far from 
inland trade facilities, in 1825 McLoughlin moved the northwest 
headquarters to a more favorable location on the northern side of the 
Columbia. He built the new site at Belle Vue Point in what is now 
Washington State and named it, Fort Vancouver.
    The new fort was nearly 750 feet long and 450 feet wide with a 
stockade about 20 feet high. There were about 40 buildings inside the 
fort. The fort housed a school, a library, pharmacy, power house, 
chapel, officers, warehouses, workshops, a blacksmith shop, and the 
largest manufacturing facility west of the Rocky Mountains. Fully 
contained, behind the fort were fields of grains, an orchard and a 
vegetable garden. The Indians, with whom Dr. McLoughlin maintained a 
very good relationship, were not allowed inside the stockade and would 
conduct their trading through a porthole in the door. In 1829, a ship 
arrived from Boston bringing with it a horrible fever which broke out 
among them. Dr. McLoughlin spent much of his own time tending to the 
ills of the stricken, but within four years over 30,000 Indians lay 
dead.
    The fort flourished under the leadership of Dr. McLoughlin. Without 
any type of military force, he was able to maintain law and order by 
his own personality and by the cooperation of his officers and 
employees. There were no Indian wars in the Oregon Country until after 
his resignation. Dr. John McLoughlin was so revered for his work in the 
Oregon Country that in 1841 McLoughlin was knighted by Queen Victoria 
at Buckingham Palace.
    By the 1840's, the British knew that they couldn't keep the 
American settlers out of Oregon, but they wanted to control as much of 
the land as possible. Discouragement came in the form of tall tales of 
fierce Indians, poor farming conditions, and terrible weather. Even 
though it was against the policy of the Hudson's Bay Company, Dr. 
McLoughlin was sympathetic to the plight of the settlers and offered 
them aid. Often arriving sick, hungry, and without provisions, his 
kindly heart extended them credit, fed and clothed them, cared for the 
sick, and supplied them with seed for farming. His personal decision to 
provide supplies and support to the American settlers coming over the 
Oregon Trail, contrary to his orders from the Hudson's Bay Company 
Governor, proved to be critical to the peaceful settlement of the 
territory in favor of U.S. claims.
    In 1845, no longer able to stomach company policy toward American 
settlers, Dr. McLoughlin resigned his position with the Hudson's Bay 
Company. After his resignation, he purchased Hudson's Bay Company's 
land claim at Willamette Falls in Oregon City, and he and his family 
moved into his newly-built house (The McLoughlin House) in 1846. 
McLoughlin remained a public figure during his retirement and became a 
U.S. citizen in 1849. He donated land for a jail and female seminary, 
and in 1851 he was elected mayor of Oregon City. He died in his home 
only six short years later.
    In 1941, the McLoughlin House was designated a National Historic 
Site, the first one in the west, and in 1957, Dr. John McLoughlin was 
named ``Father of Oregon'' by the Oregon State Legislature.
    As you can see, Fort Vancouver and the McLoughlin House National 
Historic Site have a long and storied history together. The intent of 
my legislation is to see that history continued by expanding the 
boundaries of Fort Vancouver to include the McLoughlin House National 
Historic Site.
    Currently the McLoughlin House National Historic Site is maintained 
and managed by the non-profit McLoughlin Memorial Association. When the 
McLoughlin House faced demolition in 1909, the Memorial Association was 
formed and money was raised to move the house to a public park atop the 
bluff. McLoughlin's home opened as a museum in 1910. For almost 100 
years, the association has done admirable work to preserve and maintain 
this historic treasure so thousands of people can continue to tour the 
site annually. However, over the past several years, the association 
has been unable to raise the funds required to provide the needed 
maintenance and upkeep of the property that is now in jeopardy of 
falling into disrepair.
    The McLoughlin House National Historic Act would do what we believe 
should have occurred over 60 years ago and that is include these 
properties as part of the National Park System to be managed by the 
National Park Service. Again, it is my intent that this would be done, 
not by creating a new unit of the National Park System, but rather by 
simply including the McLoughlin House into the boundaries of Fort 
Vancouver National Historic Site which is already administered as part 
of the National Park System. I believe that including the McLoughlin 
House into the boundaries of Fort Vancouver is the only way to preserve 
in perpetuity the cultural, educational, and historical benefits of 
this historic site for future generations.
    This legislation has the support of city and county officials, the 
McLoughlin Memorial Association, and the entire Oregon delegation. The 
citizens of Oregon City also approved a ballot measure by over 80 
percent that would grant the National Park Service an interest in the 
city property on which the McLoughlin House now sits to allow the NPS 
to administer the house.
    I thank you once again for your consideration of this bill and 
thank the Committee members for your time.
                                 ______
                                 
    [The statements submitted for the record by Ms. Hooley 
follow:]

                Statement of John Salisbury, President, 
                    McLoughlin Memorial Association

    Mr. Chairman, although the Association cannot afford to send a 
representative personally to Washington, D.C., I appreciate the 
opportunity to share with you the Association's heartfelt feelings on 
this critically important bill to include the McLoughlin House National 
Historic Site in the National Park System.
    To appreciate the importance of the McLoughlin House National 
Historic Site, you have to understand the man himself. In his time, 
John McLoughlin seemed larger than life, with a commanding presence 
that earned him the nickname ``The White Headed Eagle.'' Today, due to 
his rich legacy of compassion, we know that he truly was larger than 
life. He stands out as an extraordinary man in difficult, tumultuous 
times who chose to lead with kindness and support of others in need. If 
there is a single person to whom we can attribute the peaceful 
settlement of what is now the Pacific Northwest, it is John McLoughlin. 
Contrary to Hudson's Bay Company orders and to the detriment of his 
career, he offered aid and refuge to Americans coming to settle in the 
lands of the Pacific Northwest. As one early Oregon pioneer, Daniel 
Holman, wrote of McLoughlin, ``If he had not helped us we could not 
have lived in Oregon.'' Another settler offered that McLoughlin's 
``benevolent work was confined to no church, sect, or race of men, but 
was as broad as suffering humanity, never refusing to feed the hungry, 
clothe the naked, and provide for the sick and toilworn.'' His 
commitment to service continued after his move to Oregon City, where he 
continued to assist settlers and, indeed, anyone in need. He became one 
of the city's earliest mayors and one of the Northwest's first 
philanthropists, donating land and funds to support public uses such as 
schools and parks.
    McLoughlin's importance and significance spans his entire lifetime, 
and his dedication and spirit are embodied both at Fort Vancouver 
National Historic Site and McLoughlin House National Historic Site. 
Over two years ago, the McLoughlin Memorial Association approached the 
National Park Service at a public meeting concerning the development of 
a general management plan for Fort Vancouver National Historic Site. 
We, along with city representatives, made a strong case that the 
McLoughlin House National Historic Site should be part of the National 
Park System. We feel strongly that this site which in 1941 was 
designated a national historic site and an affiliated unit of the 
National Park System should formally become part of the System, either 
as part of Fort Vancouver National Historic Site or as its own unit.
    The McLoughlin House was the first site in the west to be 
designated a national historic site. The house is, unquestionably, one 
of the most significant historic sites in the Pacific Northwest and has 
a direct link with Fort Vancouver National Historic Site. It was from 
Fort Vancouver, that McLoughlin retired in 1846 to the home he had 
built in Oregon City. Historically, the house symbolizes the beginnings 
of settlement in the Oregon Territory. The house serves as a reminder 
of McLoughlin as a prominent citizen, successful businessman and 
entrepreneur, landowner, and devoted family man of not only Oregon City 
and Oregon, but of the entire Northwest.
    I would not be overstating it to say that the Association has a 
great respect and love for the legacy of John McLoughlin and the 
McLoughlin House National Historic Site. The Association, in fact, came 
into being in 1909 in order to save the house from demolition. A 
coalition of community leaders and citizens from Oregon City, Portland, 
and Southwest Washington formed a tight-knit group to raise the funds 
to move the house to its present location, which is land donated by 
John McLoughlin to the people of Oregon Territory to be used for park 
purposes. The Association has worked tirelessly for close to 100 years. 
As much as we have accomplished, we have increasingly looked to the 
National Park Service to provide assistance. As an affiliated site, we 
have received assistance since 1941. However, we realize that we cannot 
provide the level of attention and assistance that this nationally 
significant site so richly deserves. Although it is difficult for me to 
say this, the responsibilities of managing, protecting, and providing 
for public programs at the McLoughlin site has weighed on us and in the 
last 10-15 years it has become a burden to our small Association.
    We believe that the National Park Service is far and away the best-
equipped and most appropriate to manage and protect this site. We 
believe this premier site deserves to be a part of the premier park 
management organization. The preservation of the McLoughlin House 
National Historic Site should be one of our highest priorities. The 
Association will continue to be a productive force in the preservation 
of the site and we will work alongside the National Park Service, but 
it is worthy of national recognition as part of the National Park 
System managed by the National Park Service.
    Finally, Mr. Chairman, I recognize that you and other congressional 
representatives have many, many issues to address. I also recognize 
that this is a small site and in the grand scheme of things perhaps not 
a very important issue to some. But this bill, and what it means to the 
history of the Pacific Northwest, is very important to us. I know that 
Congresswoman Hooley would agree with me that this is a bipartisan 
bill. Its development was truly a grassroots effort in which there was 
tremendous local and regional support. It is our assertion that the 
McLoughlin House is a site that should have been included in the 
National Park System over 60 years ago when it was first named a 
national historic site, and consider this legislation a change in the 
site's designation rather than the creation of a new park. Making the 
McLoughlin House its own unit or part of Fort Vancouver National 
Historic Site will enable the National Park Service to care for the 
site which the Association has done to the best of its abilities for 
close to 100 years. The significance of the site and the history that 
happened within the walls dictate that the McLoughlin site deserves 
national status. Furthermore, the administration of the site by the 
National Park Service would ensure that it receives attention and 
protection in perpetuity.
    Please help us preserve this magnificent site by making it part of 
the National Park System. Thank you very much for providing me the 
opportunity to share the Association's thoughts on this vitally 
important matter.
                                 ______
                                 

           Statement of The Honorable John Williams, Mayor, 
                      City of Oregon City, Oregon

    Thank you, Mr. Chairman, for the opportunity to present the views 
of the City of Oregon City regarding this bill to make the McLoughlin 
House National Historic Site a unit of the National Park System. The 
bill is the result of overwhelming support within the City of Oregon 
City for the site's inclusion in the National Park System, either as 
its own unit or as a part of Fort Vancouver National Historic Site. As 
Mayor of Oregon City, I am pleased to share with you, and Committee 
members, that this bill is a rarity, in that it has received unanimous 
support from all interested parties. No one, to my knowledge, has 
voiced disagreement concerning the site becoming a part of the National 
Park System.
    As you may know, the McLoughlin House National Historic Site is 
actually situated on an Oregon City charter park. This park land was in 
fact donated by John McLoughlin himself. Due to the significance of 
charter parks, it was required that this issue be brought before the 
voters. There has been a powerful grass roots initiative to ensure the 
site's survival in perpetuity. By an over 80% approval rate, the 
citizens of Oregon City approved Ballot Measure 3-38 on May 15, 2001. 
This measure asked voters to allow the City of Oregon City to grant the 
National Park Service a property interest in the city park that would 
allow the agency to administer the McLoughlin House.
    For your background information, over two years ago the City of 
Oregon City and the McLoughlin Memorial Association approached the 
National Park Service with the goal that Fort Vancouver National 
Historic Site take responsibility for the McLoughlin House National 
Historic Site. For many years, we have been struggling with how best to 
protect and preserve this national historic site. Oregon City, the 
Association, and the National Park Service have worked closely together 
for the last two years. We are all in agreement that this site needs to 
be managed for educational benefit, the protection of its cultural 
resources, and public use. Growing beyond this partnership, the time 
has come for the National Park Service to assume full responsibility. I 
ask this not just because the National Park Service can ensure the 
perpetual care of this site, but also because this site is nationally 
significant. I would not recommend the site for inclusion in the 
National Park System if I did not wholeheartedly believe in its 
national significance.
    I think it is also important to note that Oregon City and the 
Association also looked into identifying other individuals or 
organizations that could provide for the protection of the site. Let me 
make it clear that no individuals or other organizations have been 
forthcoming. Alternatives such as for-profit management restaurant, 
brewpub, or bed-and-breakfast are incompatible and inappropriate, and 
we did not consider them for this site, the first designated national 
historic site in the west.
    The citizens of Oregon City fully support the continued operation 
of this national historic site as a park, which will hopefully be 
managed by the National Park Service. I appreciate your sincere 
consideration on this bill.
                                 ______
                                 
    Mr. Radanovich. Next we will move to Virginia and H.R. 
3449, to revise boundaries of the George Washington Birthplace 
National Monument.
    Jo Ann, welcome. We will be pleased to hear your testimony.

    STATEMENT OF THE HON. JO ANN DAVIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Ms. Davis. Thank you, Mr. Chairman. Good afternoon, Mr. 
Chairman, Ranking Member Christensen and members of the 
Committee. I thank you for the opportunity to testify on behalf 
of H.R. 3449, which would authorize the National Park Service 
to revise and expand the boundaries of the George Washington 
Birthplace National Monument in Westmoreland County by an 
additional 115 acres.
    Mr. Chairman, this bill was first offered by my 
predecessor, Herb Bateman, in 1991. Mr. Bateman's bill, H.R. 
2444 passed both the House and the Senate in the 102nd 
Congress. It didn't make it to the President's desk because the 
patient owner, at that time, had a change of heart.
    I am happy again to bring this measure before the Committee 
to realize a long-standing effort by the Park Service and the 
Committee to preserve this undisturbed land for future 
generations to enjoy and to learn of the Washington's way of 
life during our nation's formative years.
    George Washington was born on this property on February 22, 
1732. He lived on the farm for three and a half years and again 
for several years in his teens. The farm lies between Pope's 
and Bridges Creeks, tributaries of the Potomac River in 
Virginia's Northern Neck, about 60 miles southeast of 
Washington, D.C.
    The location includes a memorial house designed to recreate 
the original birth site as revealed by excavations. The 
memorial house was finished in time for George Washington's 
200th birthday in 1932 and is one of the centerpieces of the 
national monument.
    The National Park Service also operates a colonial farm 
that recreates 18th Century plantation life. Living history 
demonstrations, including colonial cooking, blacksmithing and 
spinning wool continue to occur as special events.
    John Washington, George Washington's great grandfather, 
emigrated to America and acquired this property in 1664. Over 
time, George Washington's father, Augustine Washington, 
continued to add various parcels to the property until the 
Washington land ran uninterrupted from Bridges Creek to Pope's 
Creek.
    George Washington's father, grandfather and great 
grandfather are all buried in the family cemetery located on 
the national monument property. The park currently comprises 
550 acres of land. However, because of the monument's current 
boundary configuration over 100 acres of private land outside 
the monument's boundary are sandwiched between two units of the 
monument and the Potomac River.
    Willing sellers are again amenable to transferring the 
property to the National Park Service and Congress needs to 
consequently act so that this opportunity will not be lost.
    Because of the rural character and natural beauty of 
Virginia's Northern Neck region, the shoreline of the Potomac 
River and Chesapeake Bay have become attractive locations for 
development.
    Many retirees have come to the Northern Neck in recent 
years because of the tranquil lifestyle and low property taxes. 
Property's within close proximity of the George Washington 
Birthplace have become the sites for new residential homes in 
recent years.
    Mr. Chairman, Congress needs to act as soon as possible so 
that the current owners will not be tempted to entertain any of 
these offers. Again, most of the 115 acres I am seeking to have 
authorized not only abuts the site, but in fact splits the 
property at one portion of the park.
    I think we have given you a plat of that showing how that 
happened. Development of this land would seriously compromise 
the historic quality of the park. The Federal Government can 
play a critical in acquiring this important property to 
maintain the integrity of the Washington home site.
    H.R. 3449 is a fitting tribute to a man who has long been 
revered as our greatest founding father, a man of high moral 
integrity and character, a man with distinct leadership 
capabilities and above all, a man who guided Americans to 
freedom and led them to union.
    I urge your support of this measure, Mr. Chairman. I ask 
unanimous consent that a letter of support that we have for GW 
that is from the Trust for Public Land, that it be entered into 
the record.
    Mr. Radanovich. There being no objection, it is so ordered.
    [The statement submitted for the record by Ms. Davis 
follows:]

Statement of Alan Front, Senior Vice President of the Trust for Public 
    Land, and Ralph Grossi, President of the American Farmland Trust

    Mr. Chairman and Representative Christian-Christensen, thank you 
for the opportunity to provide the Subcommittee with our testimony in 
support of H.R. 3449.
    On behalf of the Trust for Public Land (TPL) and American Farmland 
Trust (AFT), we want to express our strong support for H.R. 3449, a 
bill to revise the boundaries of the George Washington Birthplace 
National Monument. H.R. 3449, as introduced by Rep. Jo Ann Davis, is 
not only timely, but will add substantially to the protection of the 
monument and the interpretation of our first President's early life.
    The George Washington Birthplace National Monument is located in 
Westmoreland County, Virginia, about 75 miles south of Washington, DC. 
A privately owned, 111-acre parcel currently sits directly between two 
National Park Service (NPS) owned portions of the monument, essentially 
splitting the monument into two pieces. This parcel is owned by the 
Muse family, who themselves have roots in the area likely dating back 
to George Washington's time. Acquisition of this 111-acre parcel will 
finally consolidate the monument into one contiguous unit.
    The Muse family has expressed an interest in selling their property 
to the NPS to be incorporated into the monument and our two 
organizations are assisting with that transaction. However, this 
project cannot move forward until the monument's boundaries are amended 
to include the Muse property, and the window of opportunity with the 
Muse family is very limited. We are therefore extremely pleased that 
the Subcommittee is beginning this process with today's hearing on H.R. 
3449, which authorizes the inclusion of the Muse property into the 
monument. We hope the Subcommittee and Full Committee will act 
expeditiously to move the bill to the House floor.
    The Muse property straddles the Potomac River and Popes Creek, and 
hosts forested marsh, river shorelines, creek frontage, tidal marsh, 
and an old farmhouse. Further development on this private inholding 
could cause irreparable harm to the integrity of the historic character 
and natural resources of the existing monument, and would permanently 
mar its scenic vistas seen by Washington himself, whose attachment to 
this land stayed with him his entire life.
    TPL and AFT urge swift approval of this bill, which will provide 
the opportunity to secure this nationally significant land and add it 
to the George Washington Birthplace National Monument.
                                 ______
                                 
     Ms. Davis. I thank you again, Mr. Chairman and appreciate 
the opportunity to be here to testify on behalf of this 
legislation.
    [The prepared statement of Ms. Davis follows:]

 Statement of The Honorable Jo Ann Davis, a Representative in Congress 
                       from the State of Virginia

    Good afternoon Mr. Chairman and members of the Committee. Thank you 
for the opportunity to testify on behalf of H.R. 3449, which would 
authorize the National Park Service to revise and expand the boundaries 
of the George Washington Birthplace National Monument in Westmoreland 
County, Virginia by an additional 115 acres.
    Mr. Chairman this bill was first offered by my predecessor Herb 
Bateman in 1991. Mr. Bateman's bill, H.R. 2444, passed both the House 
and Senate in the 102nd Congress. (It did not make it to the 
President's desk because the property owner, at that time, had a change 
of heart.) I am happy to again bring this measure before the Committee 
to realize a long standing effort by the Park Service and the community 
to preserve this undisturbed land for future generations to enjoy and 
learn of the Washington's way of life during our nation's formative 
years.
    George Washington was born on this property on February 22, 1732, 
and lived on the farm for three and a half years, and again for several 
years in his teens. The farm lies between Pope's and Bridge's Creeks, 
tributaries of the Potomac River, in Virginia's Northern Neck, about 60 
miles southeast of Washington, D.C. The location includes a Memorial 
House designed to recreate the original birthsite as revealed by 
excavations. The Memorial House was finished in time for George 
Washington's 200th birthday in 1932, and is one of the center pieces of 
the National Monument. The National Park Service also operates a 
colonial farm that recreates 18th century plantation life. Living 
history demonstrations including colonial cooking, blacksmithing, and 
spinning wool continue to occur as special events.
    John Washington, George Washington's great-grandfather, immigrated 
to America and acquired this property in 1664. Over time, George 
Washington's father, Augustine Washington, continued to add various 
parcels to the property until the Washington land ran uninterrupted 
from Bridges Creek to Pope's Creek. George Washington's father, 
grandfather, and great-grandfather are buried in the family cemetery 
located on the National Monument property.
    The park currently comprises 550 acres of land. However, because of 
the Monument's current boundary configuration, over 100 acres of 
private land outside the Monument's boundary are sandwiched between two 
units of the monument and the Potomac River. Willing sellers are again 
amenable to transferring the property to the National Park Service, and 
Congress needs to consequently act so that this opportunity will not be 
lost.
    Because of the rural character and natural beauty of Virginia's 
Northern Neck region, the shore line of the Potomac River and 
Chesapeake Bay have become attractive locations for development. Many 
retirees have come to the Northern Neck in recent years because of the 
tranquil lifestyle and low property taxes, and properties within close 
proximity of the George Washington Birthplace have become the sites for 
new residential homes in recent years. Mr. Chairman, Congress needs to 
act soon so that the current owners will not be tempted to entertain 
other offers.
    Again, most of the 115 acres I am seeking to have authorized not 
only abuts the site but in fact splits the property at one portion of 
the park. Development of this land would seriously compromise the 
historic quality of the park. The Federal Government can play a 
critical role in acquiring this important property to maintain the 
integrity of the Washington homesite.
    H.R. 3449 is a fitting tribute to a man who has long been revered 
as our greatest founding father, a man of high moral integrity and 
character, a man with distinct leadership capabilities, and above all a 
man who guided Americans to freedom and led them to union. I urge your 
support of this measure. Thank you.
                                 ______
                                 
    Mr. Radanovich. Are there any questions of the panel?
    Mrs. Christensen. No, I don't have any questions, Mr. 
Chairman. I apologize to you and to my colleagues, the other 
panelists this afternoon, for being late.
    I want to welcome my colleagues and I look forward to 
working with them on this legislation.
    I will submit my opening statement for the record. Thank 
you.
    [The prepared statement of Mrs. Christensen follows:]

 Statement of The Honorable Donna Christensen, a Delegate in Congress 
                      from the U.S. Virgin Islands

    Good afternoon Mr. Chairman. We join with you in welcoming our 
witnesses here today and thank them for their time and effort in 
helping us gather information about the measures before the 
Subcommittee today.
    Our first bill, H.R. 3434, introduced by our colleague, 
Representative Hooley, authorizes the Secretary of the Interior to 
acquire the McLoughlin House National Historic Site in Oregon and to 
administer it as a unit of the National Park System.
    This site, which honors the achievements of John McLoughlin--
commonly referred to as ``The Father of Oregon,''--has been preserved 
and managed by the McLoughlin Memorial Association since its 
designation as a National Historic Site in 1941. Unfortunately, the 
Association is no longer in a position to be the primary management 
entity for this nationally-significant site. We look forward to hearing 
more about how the National Park Service might incorporate the Site 
into the National Park System.
    Our second bill, H.R. 3449, would modify the boundaries of the 
George Washington Birthplace National Monument in Virginia to add 
approximately 115 acres to the park. The lands in question, known as 
the Muse property, are contiguous with the existing monument boundary 
and retain an historic rural character that is closely tied to the 
monument's purposes.
    Our final measure, H.R. 4953, would grant rights-of-way to two 
counties in Oregon over an existing BLM road. Apparently the goal of 
the legislation is to facilitate transportation in the area by allowing 
the counties to upgrade the road.
    While we join the Administration in supporting appropriate means of 
transportation in the area, we also share the Administration's concerns 
regarding the methodology employed by the bill. It is our understanding 
that an administrative process is underway, complete with public notice 
and comment, designed to address transportation issues in the area.
    It appears that H.R. 4953 abandons this process. Such a legislative 
shortcut around the full administrative process is troubling and we 
will welcome input on this issue from our witnesses today.
    Again, we thank the witnesses for being here today and look forward 
to their testimony.
                                 ______
                                 
    Mr. Radanovich. Thank you very much Congressman and 
Congresswomen. Please join us on the dais.
    We will call the next panel. We have three panels here, but 
we are just going to combine them into one. So, if I could ask 
Ms. Sue Masica, the Associate Director of Parks, Planning, 
Facilities and Lands, of the National Park Service to come up; 
Mr. Robert Anderson, Deputy Assistant for Minerals, Realty, and 
Resource Protection of the Bureau of Land Management; and also 
Judge Scott R. Cooper of the Crook County Court in Crook 
County, Oregon who is here to speak on H.R. 4953.
    Again, thank you for coming to testify today. We will go 
ahead and start right to left. It will be 5 minutes for each 
person to give their testimony and then after we hear from 
everybody we will go ahead and open up for questions from 
various members.
    Mr. Radanovich. Mr. Anderson, since you were on the left, I 
would be happy to ask you to go ahead and speak. I understand 
you are speaking on H.R. 4953, which is the Deschutes and Crook 
county State right-of-way in Oregon.
    Welcome and thank you. Again, there is a time clock there. 
If you would stick to the 5-minute rule, that would be great.

 STATEMENT OF ROBERT ANDERSON, DEPUTY ASSISTANT FOR MINERALS, 
   REALTY, AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT

    Mr. Anderson. Good afternoon, Mr. Chairman. Thank you and 
the members of the Subcommittee for the opportunity to discuss 
H.R. 4953, a bill to direct the Secretary of the Interior to 
grant to Deschutes and Crook Counties in the State of Oregon a 
right-of-way to West Butte Road.
    We have provided you with a new map dated June 2002 of the 
West Butte Road area for your information. The one referenced 
in your bill is no longer used by BLM. The department supports 
the goals of H.R. 4953 to grant the right-of-way to Oregon 
counties, but we would like to work with the Chairman and the 
Subcommittee on amendments to the bill to provide a process 
that would include community involvement in addressing 
potential issues related to recreational users and wildlife 
concerns.
    As you know, a hearing on the Senate version, S. 2482, of 
this legislation was held in June. Since that hearing, staff of 
the Department of Interior has been working with the staff of 
the Oregon delegation to address these concerns.
    In 1968, the State of Oregon designated Highway 27 as a 
State highway with the understanding that a new route for the 
road would be created. It was recognized that the current 
alignment of Highway 27, the only State highway in Oregon that 
still has unpaved portions, could not be improved for economic 
reasons and physical limitation.
    The BLM's 1989 Resource Management Plan for Prineville 
failed to anticipate issues related to the rapidly growing 
human population in Bend, Rudman, Prineville and surrounding 
areas.
    This combination of changing circumstances and new 
information has created a need to revise the existing Upper 
Deschutes Resource Management Plan. From here on out, Mr. 
Chairman, I will refer to that plan as simply ``The management 
plan.''
    The management plan is currently being prepared to address 
these issues, particularly the need to address transportation 
opportunities, including the West Butte Road. Recognizing the 
importance of these issues, the BLM has made the management 
plan a priority and put it on a fast track.
    The transportation analysis component of the management 
plan could begin as early as January of 2003 and be completed 
after the record of decision on the management plan is signed 
in the winter of 2004.
    The management plan utilizes a community-based, 
collaborative process that helps solve important problems 
facing long-term management of the public lands. Chartered by 
Deschutes provincial advisory committee, issue teams have been 
formed to represent the general public. Specific interest 
groups, permit holders, other stakeholders and relevant 
government agencies, including Crook and Deschutes Counties.
    Associated with the proposed necessity alignment of State 
highway 27 are a few other important issues under consideration 
in the management planning process. These include off-highway 
vehicle use and important wildlife issues.
    With regard to off-highway vehicle use, the current West 
Butte Road splits the Millican off-highway vehicle recreational 
use area down the middle. Further development of the West Butte 
Road could create safety conflicts and limit these recreation 
users in the area.
    The Millican off-highway vehicle trail system is one of the 
most popular in the State and represents a significant 
financial investment by the State Off-Highway Vehicle 
Committee.
    Another outstanding concern is the issue of wildlife in the 
West Butte Road corridor. Currently, the West Butte Road falls 
on the fringe of fragile sage grouse habitat and within deer 
winter range. The sage grouse populations have declined in this 
area due to a number of factors, including human disturbances.
    We must consider these potential impacts during our 
deliberations over the proposed realignment of State Highway 27 
and we have already begun to do so.
    Mr. Chairman, the Department of Interior looks forward to 
working with the Subcommittee to help address these issues in a 
way that will meet Central Oregon's transportation needs.
    Thank you for the opportunity to offer this testimony and 
to share our few concerns.
    Mr. Radanovich. Thank you very much, Mr. Anderson.
    [The prepared statement of Mr. Anderson follows:]

Statement of Bob Anderson, Deputy Assistant Director, Minerals, Realty 
and Resource Protection, Bureau of Land Management, U.S. Department of 
                              the Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss H.R. 4953, a bill ``to 
direct the Secretary of the Interior to grant to Deschutes and Crook 
Counties in the State of Oregon a right-of-way to West Butte Road.'' 
The bill also provides for the relinquishment of right-of-way interests 
in the George Millican Road (or ``Old Millican Road'').
    The Department supports the goal of H.R. 4953 to grant the right-
of-way to the Oregon counties, but we would like to work with the 
Subcommittee on amendments to the bill to provide for a process that 
would include community involvement in addressing issues related to 
conflicts with recreational uses and wildlife concerns in the area. As 
you know, a hearing on the Senate version (S. 2482) of this legislation 
was held in June; since that hearing, staff of the Department of the 
Interior has been working with staff of the Oregon delegation to 
address these concerns.
Background
    The population of central Oregon has been expanding rapidly, and 
for Crook County, Oregon, one of the integral components to this growth 
is the West Butte Road. The Bureau of Land Management (BLM) constructed 
the West Butte Road in 1968. It is a fairly straight road, 
approximately 14 miles in length that has become the preferred route 
from Four Corners to Highway 20. Crook County has maintained it for 
several years under a cooperative maintenance agreement with the BLM. 
Deschutes County sees this road as a means of relieving some of the 
traffic burden from Highway 97 in the ever-growing Bend and Redmond 
communities.
    In 1968, the State of Oregon designated Highway 27, currently 
located further to the east near Prineville Reservoir, as a State 
Highway with the understanding that a new route for the road would be 
created. It was recognized that the current alignment of Highway 27 the 
only State Highway in Oregon that still has unpaved portions could not 
be improved for economic reasons and physical limitations. Later, both 
State and Federal agencies recognized the natural values of the Crook 
River Canyon, which further reduced the desirability of upgrading 
Highway 27 in its current location. Ultimately, West Butte Road became 
the most likely replacement route for Highway 27.
    The George Millican Road, meanwhile, extends from Prineville to 
Lakeview and was recognized in 1915 by Crook County as a country road. 
The northern segment of the road was converted to a right-of-way in 
1991 and is no longer a concern to the counties. However, the southern 
segment of road from Four Corners south to Highway 20, near the town of 
Millican continues to be an area of concern. The route is a single 
lane, unimproved road that occupies the original 1915 alignment. 
Currently, the BLM has several rights-of-way over this segment of the 
George Millican Road.
Upper Deschutes Resource Management Plan
    Over the last three years, the BLM has been working with Crook and 
Deschutes Counties, the Oregon Department of Transportation, and Oregon 
Department of Fish and Wildlife identifying suitable alternatives to 
State Highway 27. One of the more suitable alternative routes that has 
been considered is the combined route known as the Millican and West 
Butte Road.
    The BLM's 1989 Resource Management Plan for Prineville failed to 
anticipate issues related to the rapidly growing human population in 
Bend, Redmond, Prineville, and surrounding areas. This combination of 
changing circumstances and new information has created a need to revise 
the existing Resource Management Plan. The Upper Deschutes Resource 
Management Plan is currently being prepared to address these issues, 
particularly the need to resolve a number of transportation problems 
including the West Butte Road. Recognizing the importance of these 
issues, the BLM has made the Upper Deschutes Resource Management Plan a 
priority and put it on a fast track, with a final Record of Decision 
planned for the Winter of 2003/2004.
    Through this process we have agreed to consider and analyze 
alternative corridors to determine the route that would be most 
suitable for future use as a State Highway. Following completion of the 
Upper Deschutes Resource Management Plan, the BLM would be able to 
issue a decision on the right-of-way, and assuming a favorable decision 
for the right-of-way, determine the final alignment of the road, and 
also determine any mitigation measures for road design.
    It is important to note that the Upper Deschutes Resource 
Management Plan provides intensive public and governmental 
collaboration. It utilizes a community-based collaborative process that 
helps solve important problems facing long-term management of the 
public lands within the planning area. It is a process that is 
deliberative and open to all. Accordingly, the BLM is using ``Issue 
Teams'' to focus on specific planning issues. Chartered by the 
Deschutes Provincial Advisory Committee, the Teams are composed of 
representatives of the general public, specific interest groups, permit 
holders, other stakeholders and relevant government agencies, including 
Crook and Deschutes Counties. Team members have been meeting since the 
Fall of 2001 and the majority of their work will involve review of 
public comments on the Draft Environmental Impact Statement for the 
Resource Management Plan near the end of 2002 or the beginning of 2003.
    Finally, the transportation analysis component of the Upper 
Deschutes Resource Management Plan could begin as early as January of 
2003, and be completed after the Record of Decision on the Resource 
Management Plan is signed in the Winter of 2003/2004.
H.R. 4953
    The Department of the Interior supports the goal of H.R. 4953; 
however, the Department believes the introduced legislation would cut 
short the process currently underway to provide for greater community 
involvement in addressing issues related to final location and design 
of the West Butte Road. The Upper Deschutes Resource Management 
Planning process provides an appropriate vehicle for addressing and 
resolving this issue. The bill as currently drafted does not address 
the important issues under consideration in the Upper Deschutes 
Resource Management Planning process.
    With regard to Off-Highway Vehicle recreation use, the current West 
Butte Road splits the Millican Off-Highway Vehicle recreational use 
area down the middle and further development of the West Butte Road 
could create safety conflicts and limit these recreation uses in the 
area. The Millican Off-Highway Vehicle trail system is one of the most 
popular in the state, and represents a significant financial investment 
by the State Off-Highway Vehicle Committee, attracting riders state-
wide. Off-Highway Vehicle use in the BLM's Resource Management Plan is 
an important issue, and the BLM is currently determining, on a broad-
scale, how and where these Off-Highway Vehicle recreational uses will 
continue in the future. There is no provision in the legislation that 
provides for mitigation measures to provide for the safety of Off-
Highway Vehicle users and ensure that the recreation impacts of future 
development of the West Butte Road are minimized.
    Another outstanding concern is the issue of wildlife in the West 
Butte Road corridor. Currently, the West Butte Road falls on the fringe 
of fragile sage grouse habitat and within mule deer winter range. The 
sage grouse populations have declined in this area due to a number of 
factors, including human disturbances. There are nesting populations 
that currently migrate between the West Butte and the Millican breeding 
areas. H.R. 4953, as currently written, does not provide for a way to 
address the potential impacts of the development of the West Butte Road 
on the sage grouse and mule deer populations.
    Finally, the establishment of a State Highway in the West Butte 
Road corridor may also increase the potential for development of 
private lands that would be more easily accessed by an improved road, 
and these potential future development issues also should be 
considered.
Conclusion
    Mr. Chairman, the Department of the Interior looks forward to 
continuing to work with the Subcommittee to help address these issues 
in a meaningful way that will meet Central Oregon's transportation 
needs. Thank you for the opportunity to testify before you today. I 
would be pleased to answer any questions that you or the other members 
of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Our next witness is Sue Masica here to 
speak on H.R. 3434 and H.R. 3449. Welcome.

  STATEMENT OF SUE MASICA, ASSOCIATE DIRECTOR, PARK PLANNING, 
          FACILITIES AND LANDS, NATIONAL PARK SERVICE

    Ms. Masica. Thank you, Mr. Chairman. Thank you for the 
opportunity to present the department's views on H.R. 3434, a 
bill to acquire the McLoughlin House in Oregon City, Oregon and 
to administer the site as a unit of the National Park System.
    We do not support this legislation unless the bill is 
amended to authorize that the McLoughlin House National 
Historic Site be added to Fort Vancouver National Historic Site 
in Vancouver, Washington, instead of authorizing it as a 
separate unit of the National Park System.
    We have studied the McLoughlin House and found that it 
meets the suitability and feasibility criteria for addition to 
the National Park System. We feel it could be managed most 
effective as part of an existing park unit.
    Since 1948, the McLoughlin House Memorial Association has 
had an agreement with the Park Service so that both the house 
and Fort Vancouver work cooperatively together. We believe that 
the most effective management of the McLoughlin House would 
result by the National Park Service continuing this cooperative 
working relationship at both sites.
    We estimate the acquisition costs for the McLoughlin House 
at approximately $445,000 and the annual operating costs to be 
about $285,000. We feel that the addition of the McLoughlin 
House to Fort Vancouver National Historic Site would result in 
greater cost efficiencies than its designation as a separate 
unit. This issue has been studied as part of the General 
Management Plan Revision for Fort Vancouver and the Park 
Service study potential boundary adjustment alternatives 
including one that adds the McLoughlin House and that that 
alternative meets the National Park Service's criteria for 
suitability and feasibility as a unit of the system.
    There is a long working relationship going back to the 
1940's between the Park Service and the site. We envision 
sustaining that strong relationship with the McLoughlin 
Memorial Association as well as enhancing the interpretive 
educational and maintenance responsibilities that visitors 
demand.
    We would be pleased to work with the Committee on revising 
the bill's language to make it consistent with this testimony.
    On H.R. 3449, a bill to revise the boundaries of George 
Washington Birthplace National Monument, the department 
supports the enactment of a bill. The bill would authorize the 
addition of appropriately 115 acres to the national monument. 
It is a piece of property known as the Mews Property.
    Land acquisition costs are estimated to be about $700,000 
and operational costs are estimated to be about $20,000 a year. 
The property to be acquired, known as the Mews Track, consists 
of about 115 acres which is completely surrounded by the park, 
the Potomac River, and Pope's Creek.
    Acquisition of the track is vital to the integrity of the 
park and would prevent development that could degrade the 
park's pastoral setting and significant natural and cultural 
resources.
    The park presently contains about 550 acres. The Mews 
Family has indicated their willingness to be included within 
the park boundary for eventual acquisition by the Park Service 
or a Park Partner. That is a change from what had happened 
several years ago.
    The proposal to add the property to the monument is 
supported also by the Westmoreland County Board of Supervisors 
and other affiliated groups.
    Mr. Chairman, thank you for the opportunity to comment. I 
would be happy to answer any questions.
    [The prepared statements of Ms. Masica follow:]

    Statement of Sue Masica, Associate Director for Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 3434

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on this bill to acquire the McLoughlin House in 
Oregon City, Oregon, and to administer the site as a unit of the 
National Park System.
    We do not support this legislation unless the bill is amended to 
authorize that the McLoughlin House National Historic Site to be added 
to Fort Vancouver National Historic Site in Vancouver, Washington, 
instead of authorizing it as a separate unit of the National Park 
System. We have studied the McLoughlin House and found that it meets 
the suitability and feasibility criteria for addition to the National 
Park System. We feel it could be managed more efficiently as part of an 
existing park unit. Since 1948 the McLoughlin House Memorial 
Association has had an agreement with the National Park Service so that 
the both the McLoughlin House National Historic Site and Fort Vancouver 
National Historic Site would work cooperatively together. We believe 
that the most effective management of the McLoughlin House would result 
by the National Park Service continuing this cooperative working 
relationship at both sites. The one-time acquisition cost of the 
McLoughlin House is approximately $445,000. The cost of maintaining and 
operating the McLoughlin House as a unit of the Fort Vancouver National 
Historic Site is approximately $285,000 per year. The Department feels 
that the addition of the McLoughlin House to Fort Vancouver National 
Historic Site would result in greater cost-efficiencies than its 
designation as a separate unit.
    In the General Management Plan revision for Fort Vancouver National 
Historic Site, the National Park Service studied potential boundary 
adjustment alternatives, including one that adds the McLoughlin House. 
This alternative meets the National Park Service's criteria for 
suitability and feasibility as a unit of the National Park System. The 
plan revision goes on to say that adding the McLoughlin House National 
Historic Site to Fort Vancouver National Historic Site is ``a value to 
the American people and provides for NPS operations and 
interpretation.''
    The McLoughlin House is located in Oregon City, Oregon along the 
dramatic Willamette River Falls and southeast of downtown Portland. It 
is a short drive from Fort Vancouver National Historic Site, north of 
Portland, in the state of Washington and along the Columbia River.
    Recognized for its national significance, the McLoughlin House 
National Historic Site, designated in 1941, was the first national 
historic site designated in the western United States. The site has 
been operated as an affiliated area of the National Park System by the 
McLoughlin Memorial Association, which has owned and operated the site 
since 1909. The site received assistance from the National Park Service 
when Fort Vancouver National Historic Site was established in 1948. In 
the last few years, the National Park Service has provided staff and 
funds for critical needs of the house, the collection, and the grounds.
    John McLoughlin is recognized as the ``Father of Oregon.'' He came 
west and established the Hudson's Bay Company's regional headquarters 
and depot of Fort Vancouver on the north side of the Columbia River in 
what is now the State of Washington. Through his leadership, he 
maintained peace between Great Britain, which claimed the territory, 
settlers from the United States who were part of the country's westward 
expansion, and the native tribes in the region. Despite the policies of 
the Hudson's Bay Company, John McLoughlin foresaw the area's future, 
and offered aid and supplies to the American settlers many of who were 
sick, starving, and ill equipped to begin a new life.
    McLoughlin built his home across the Columbia River, in Oregon 
City, where he continued to assist those in need. This house, because 
of McLoughlin's tremendous generosity, became known as the ``House of 
Many Beds.'' After becoming an American citizen, John McLoughlin became 
Mayor of Oregon City and increased his selfless acts of philanthropy 
throughout the region. His is the history of the west, as Jamestown is 
the history of the east.
    The McLoughlin House has retained its historic integrity as one of 
the earliest examples of its architectural style in the Pacific 
Northwest, and serves as a focal point for education and tourism. The 
site provides a location where school children to learn first-hand 
about the early history of the area. The McLoughlin House provides a 
bookend to the story of the settling of the west that is told at Fort 
Vancouver National Historic Site.
    As a unit of Fort Vancouver National Historic Site, we envision 
sustaining the strong relationship with the McLoughlin Memorial 
Association as well as enhancing the interpretive, educational, and 
maintenance responsibilities that visitors demand and a century and a 
half old house needs. It is a testament to the association and the 
citizens of Oregon City that the house retains its integrity and 
special association with the former Oregon Territory. During a local 
election held in 2001, a ballot measure asked voters to allow Oregon 
City to grant a property interest to the National Park Service. This 
measure was approved by over 80% of the voters.
    The Department remains committed to the President's Initiative to 
reduce the maintenance backlog of the National Park Service. While the 
Department recognizes that this legislation may divert funds from this 
effort, the acquisition of the McLoughlin House and its administration 
as a part of Fort Vancouver National Historic Site is important to the 
viability of this nationally significant resource.
    We would be pleased to work with the Committee on revising the 
bill's language to make it consistent with this testimony. This 
concludes my testimony. I am glad to answer any questions that you or 
members of the Committee may have.
                                 ______
                                 

    Statement of Sue Masica, Associate Director for Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 3449

    Thank you, Mr. Chairman, for inviting the National Park Service to 
present its views on H.R. 3449, a bill to revise the boundaries of 
George Washington Birthplace National Monument. The Department supports 
the enactment of this bill.
    This bill would authorize the addition of approximately 115 acres 
to the National Monument (Muse property). It also authorizes the 
Secretary of the Interior to acquire lands or interests in lands within 
the boundary from willing sellers by donation, by purchase with donated 
money or appropriated funds or by exchange. Finally, it directs the 
Secretary to preserve and interpret the history and resources 
associated with George Washington, and the generations of the 
Washington family who lived in the vicinity, as well as their 
contemporaries, along with 17th and 18th century plantation life and 
society. Land acquisition costs are estimated to be $700,000. 
Operational costs are estimated to be $20,000 per year.
    The Department remains committed to the President's Initiative to 
reduce the maintenance backlog of the National Park Service. While the 
Department recognizes that this legislation may divert funds from this 
effort, the acquisition of the Muse property is essential to the 
viability of this nationally significant resource.
    George Washington Birthplace National Monument was established as a 
unit of the National Park System in 1930 to preserve the grounds and 
structures associated with the birthplace of George Washington. It was 
here, along the lower reaches of the Potomac River that the man who was 
to become our Nation's first president was born in 1732. At that time, 
this site was known as Popes Creek Plantation, owned and operated by 
George Washington's father, Augustine Washington. The park is part of a 
cultural landscape that has remained rural 270 years after George 
Washington's birth. Located in Westmoreland County, Virginia, the 
National Monument includes a memorial mansion with a kitchen, farm 
buildings, various outbuildings, an 18th Century working farm, and a 
visitor's center. The park also contains woodlands, wetlands, and 
agricultural fields. Even today, descendants of the Washington family 
continue to live in the area.
    This proposed legislation would include within the park boundary a 
privately owned parcel of land comprised of approximately 115 acres, 
known as the Muse tract, which is completely surrounded by the park, 
the Potomac River, and Popes Creek. Park roads provide the only access 
to this neighbor's land. This tract has been farmed by the Muse family 
since 1668, was contemporary with the Washington Family farm (Popes 
Creek Plantation), and is historically significant since it is directly 
connected with the plantation. Acquisition of this tract is vital to 
the integrity of the park and would prevent development that could 
degrade the park's pastoral setting and significant natural and 
cultural resources. The park's 1968 Master Plan contained a land 
acquisition plan showing fee acquisition of this privately owned tract 
and indicated that the Muse property could be used for historic farming 
or could be planted to retain the appearance of a cultural landscape.
    The boundaries of the National Monument have been modified numerous 
times since the first memorial was erected at the site in 1896. The 
park presently contains about 550 acres. For generations, the 
surrounding community has been a partner to the National Park Service 
in the protection of George Washington's birthplace. Many of the 
landowners, such as the Muse Family, come from families that have for 
generations farmed the fertile soils of Virginia's Northern Neck. It is 
only in the recent past that the area has started to change. 
Recreational use, vacations homes, and commuters to Washington D.C. and 
Richmond have increased the local population significantly creating 
development pressure that is beginning to encroach on the park. If the 
Muse tract is not acquired there is potential for commercial 
development that would directly threaten park values since the tract is 
surrounded by parklands. The Muse family has indicated their 
willingness to be included within the park boundary for eventual 
acquisition by the National Park Service or a park partner. The demand 
for land in the surrounding area is so significant that there is little 
doubt that the peaceful setting, the pastoral charm, and the quiet 
dignity of the tombs of several generations of Washingtons would be 
destroyed by the intrusion of modern development within the park 
without this legislation. Recently, a one-acre parcel of land that was 
proposed to be included within the park was sold.
    The National Monument also contains significant natural resources. 
The Muse tract includes half of the Digwood Swamp (a known bald eagle 
habitat and nesting area), extensive grasslands, riparian and upland 
forests, marshes, beaches, and cliffs (most likely with significant 
archaeological artifacts from the Woodland and Colonial periods as well 
as paleontological resources) and shares the shores of Popes Creek with 
the park. All are relatively pristine in nature and intact 
ecologically. These habitats are important to wildlife found within the 
park that use surrounding areas as conveyances to and from feeding, 
resting, and breeding areas. The preservation of this national treasure 
can only be accomplished by including the Muse tract within the 
boundary of the park.
    The proposal to add the Muse property to the National Monument is 
supported by the Westmoreland County Board of Supervisors, the 
Chantilly Chapter of the Daughters of the American Revolution, the 
National Parks Mid-Atlantic Council, the George Washington Birthplace 
National Memorial Association, and most importantly, the owners of the 
property.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other Committee members might have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much.
    Next is the Honorable Scott Cooper from Crook County in 
Oregon. Mr. Cooper, thank you for taking the red eye. Now you 
know why I don't, being from California.
    Please begin your testimony. I understand that is on H.R. 
4953.

 STATEMENT OF JUDGE SCOTT R. COOPER, CROOK COUNTY COURT, CROOK 
                         COUNTY, OREGON

    Judge Cooper. Thank you, Mr. Chairman. Thank you, Madam 
Ranking Member. I am the elected Chair and County Administrator 
for Crook County Oregon and Crook County comprises 2,982 square 
miles in which 19,182 citizens live.
    I am here today to support H.R. 4953. I especially 
appreciate my Congressman, Greg Walden, who also understands 
the importance of this bill to his constituency for securing my 
presence today.
    The No. 1 question I was asked when I told my constituency 
that I would be here was: ``Can we watch it on C-Span?''
    I assured them it does not rise to the level of national 
security or accounting fraud, but it will show you how 
important it is to my constituents even while these other 
matters go about.
    I also call to your attention that this bill is somewhat 
different than other legislation appearing before you today in 
that there is no cost to the Federal Government, not monetary 
cost. In fact, you gain acreage out of this as opposed to 
losing it.
    This is a simple bill to create a right-of-way to West 
Butte Road in Crook and Deschutes County, Oregon to the 
respective counties of Crook and Deschutes for the right-of-way 
to an unimproved county road passing through an 11-mile segment 
of BLM land.
    A companion bill, S. 2482, is pending in the Senate under 
the sponsorship of Senators Wyden and Smith. This bill is 
supported by my entire delegation because my Representative and 
my Senators have heard from local leadership that this 
legislation is of vital importance to my constituents.
    The importance of this road is that it provides a north-
south link between U.S. Highways 26 and 20 to the center or 
Oregon. These highways are the two major arterials which carry 
east-west traffic through the middle of the State. There are at 
present four potential connections between these two highways 
and Crook and Deschutes Counties.
    The first road is the designated State highway, Highway 27, 
which roughly follows the Crooked River. This road is the only 
unpaved designated highway in the State of Oregon. It crosses 
numerous riparian areas. It passes through sensitive habitat 
for threatened and endangered species. It follows a Wild and 
Scenic River corridor. Several archeological significant sites 
can be found along the roadside and the terrain through which 
it passes is geologically significant and challenging.
    For all these reasons, this option is unsuitable for 
upgrade as a north-south corridor.
    The second road is the Millican Road. This is the road the 
County proposes to give to the BLM in exchange for the West 
Butte Right-of-Way. This road was constructed in 1915 to link 
Lakeview and Prineville, Oregon. It is unimproved and seldom 
used. In sections, it is completely impassable.
    It follows a somewhat circuitous route and was largely 
abandoned after the BLM constructed the West Butte Road as a 
replacement route in 1968.
    The third option is an existing all-weather, all-vehicle 
connection between Highways 20 and 26 to the east of 
Prineville. U.S. Highway 97 runs from the border to Washington 
to the border or California through the center of Oregon. It 
passes through Bend and Redmond in Deschutes County where it 
has become the most congested segment of that highway in the 
State of Oregon.
    For a decade, traffic on this portion of the highway has 
grown steadily whereas Deschutes County has experienced double-
digit growth rates.
    Numerous efforts to construct bypasses and reroutes have 
caused State and local taxpayers tens of millions of dollars, 
but growth has outstripped all solutions.
    In addition, the location of the road is inconvenient for 
traffic traveling from the southeast portion to the northwest 
portion of the State because it requires a 35-backtrack in 
order to access the alternative route through Princeville, a 
backtrack which, due to congestion, adds approximately 60 
minutes to a 5-hour trip.
    Construction of the West Butte alternative would resolve 
problems associated with both congestion and travel time. The 
final alternative and the one envisioned by H.R. 4953 is the 
West Butte Road itself. This is a BLM road which has been 
maintained by Crook County and the BLM for many years.
    The road is gravel and a candidate for upgrade and has only 
a few minor engineering problems which are easily addressed. I 
drove it 2 weeks ago and found that a sports utility vehicle 
can easily traverse it maintaining an average speed of 45 miles 
an hour.
    It is the most likely candidate for construction of an 
additional north-south linkage.
    Over 30 years ago the Oregon State Legislature reached the 
same conclusion. In 1965, the Legislature authorized 
construction of a north-south connection between Highways 20 
and 26, passing through Crook County to replace the existing 
dirt highway.
    This authorization remains an Oregon statute today. We have 
various problems associated with this bill. The first one would 
be the matter of the National Environmental Protection Act and 
getting through all of its requirements.
    This bill would not release us of those requirements. It 
would simply transfer the cost of meeting NEPA requirements 
from the Federal Government to the State of Oregon if the State 
of Oregon were to take it up as a State highway.
    The second one is dealing with rights of way. Currently 
R.S. 2477 rights of way are backlogged in the courts. The final 
one would be the RMP, which Mr. Anderson referred to which 
appears to be headed for process gridlock and gives no 
guarantees of a final decision as to the ability of the county 
to be able to construct this road.
    As the Congressman pointed out, I have letter from the 
various employers in Crook County, noting that they would be 
able to maintain an economic base in Crook County as a result 
of getting this particular project approved.
    It would cut the costs of transportation by as much as 25 
percent for the reopening of at least one lumber mill and help 
an economically devastated community.
    I would ask, Mr. Chairman, that I be able to put these 
letters in the record.
    Mr. Radanovich. I don't think there is any objection. It is 
so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0723.001
    
    [GRAPHIC] [TIFF OMITTED] T0723.002
    
    [GRAPHIC] [TIFF OMITTED] T0723.003
    
    [GRAPHIC] [TIFF OMITTED] T0723.004
    
    [GRAPHIC] [TIFF OMITTED] T0723.005
    
    [GRAPHIC] [TIFF OMITTED] T0723.006
    
    Judge Cooper. So, with that I would ask you for the sake of 
the ecosystem and because it costs you nothing and because it 
is a great project, to work with us and we would support the 
technology amendments mentioned by Mr. Anderson.
    [The prepared statement of Judge Cooper follows:]

          Statement of The Honorable Scott R. Cooper, Judge, 
                      Crook County Court (Oregon)

    I am Judge Scott Cooper, and I am the elected chair and county 
administrator for Crook County, Oregon. Crook County comprises 2,982 
square miles and is home to 19,182 citizens. I am appearing before you 
today in support of H.r. 4953.
    I especially appreciate my congressman, Rep. Greg Walden, and his 
willingness to sponsor this legislation and his assistance in securing 
my presence here today.
    H.R. 4953 is a simple bill to trade a right of way to West Butte 
Road in Crook and Deschutes Counties, Oregon, to the respective 
counties for right-of way to an unimproved county road passing through 
the same 11-mile segment of BLM land. A companion bill, S.2482, is 
pending in the Senate under the sponsorship of Oregon Senator Ron Wyden 
and co-sponsorship of Oregon Senator Gordon Smith.
    This bill is supported by my entire delegation because my 
representative and my senators have heard from local leadership that 
this legislation is of vital importance to my constituents. The 
importance of this road is that it provides a north-south link between 
U.S. highways 26 and 20 through the center of Oregon. These highways 
are the two major arterials which carry east-west traffic through the 
middle of the state. There are at present four potential connections 
between these two highways in Crook and Deschutes Counties.
    The first road is the designated state highway, Highway 27, which 
roughly follows the Crooked River. This road is the only unpaved, 
designated highway in the state of Oregon. It crosses numerous riparian 
areas. It passes through sensitive habitat for threatened and 
endangered species. It follows a Wild and Scenic River corridor. 
Several archeologically significant sites can be found along the 
roadside, and the terrain through which it passes is geologically 
significant and challenging. For all these reasons, this option is 
unsuitable for unsuitable for upgrade as a north-south connector.
    The second road is Millican Road. This is the road the county 
proposes to trade BLM for the West Butte right of way. The present road 
was constructed in 1915 to link Lakeview and Prineville, Oregon. It is 
unimproved and seldom used. In sections, it is completely impassable. 
It follows a somewhat circuitous route and was largely abandoned after 
the BLM constructed the West Butte Road as a replacement road in 1968.
    The third option is an existing all-weather, all-vehicle connection 
between highways 20 and 26 to the east of Prineville. U.S. Highway 97 
highway runs from the border of Washington to the border of California, 
through the center of Oregon. It passes through Bend and Redmond in 
Deschutes County where it has become the most congested segment of that 
highway in the state of Oregon. For a decade, traffic on this portion 
of the highway has grown steadily worse as Deschutes County has 
experienced double-digit growth rates. Numerous efforts to construct 
bypasses and reroutes have cost state and local taxpayers tens of 
millions of dollars, but growth has outstripped all solutions. In 
addition, the location of the road is inconvenient for traffic 
traveling from the southeast portion to the northwest portion of the 
state, because it requires a 35 mile backtrack in order to access the 
alternative route through Prineville a back track which due to 
congestion adds approximately 60 minutes to a five hour trip. 
Construction of the West Butte alternative would resolve problems 
associated with both congestion and travel time.
    The final alternative, and the one envisioned by H.r. 4953, is the 
West Butte Road itself. This is a BLM road which has been maintained by 
Crook County for the BLM for many years. The road is gravel and as a 
candidate for upgrade has only a few minor engineering problems which 
are easily addressed. I drove it two weeks ago, and found that a sports 
utility vehicle can easily traverse the road maintaining an average 
speed of about 45 miles per hour. The road is unsuitable at this time 
for commercial truck traffic. It is the most likely candidate for 
construction of an additional north-south linkage connecting the two 
U.S. highways.
    In February 2000 over a period of 10 hours, the Oregon Dept. of 
Transportation conducted a study of westbound truck traffic on U.S. 
highway 20 in an attempt to determine whether construction of the West 
Butte Road would be helpful in rerouting truck traffic off highway 97 
and onto an alternative route. As a result of this survey, the 
department concluded that approximately 25 percent of the trucks that 
would otherwise backtrack through Bend and Prineville would utilize the 
West Butte Road, if constructed.
    Keep in mind that this survey only looked at trucks, not passenger 
cars, traveling on one highway, headed in one direction during a month 
when travel volume on the highway is low, due to eastern Oregon's 
sometimes harsh winter climate. Even with these limitations, however, 
the survey results were sufficient to convince the state highway 
department that this alternative would be warranted.
    Over 30 year ago, the Oregon State Legislature reached this same 
conclusion. In 1965, the legislature authorized construction of a 
north-south connection between highways 20 and 26 passing through Crook 
County to replace the existing dirt highway. That authorization remains 
in Oregon statute today.
    Since passage of authorization to trade jurisdictions for the 
existing state highway, sporadic efforts to push through a road project 
have been made. Both my predecessors in office were interested in 
constructing an alternative route using the West Butte alignment. These 
efforts have not come to fruition because each time the issue has been 
raised, significant legislative and administrative barriers have been 
raised to frustrate the efforts of county, state and Federal partners 
to work cooperatively toward this goal.
    The source of these problems has been three-fold.
    The first problem state and county have faced is compliance with 
the requirements of the National Environmental Protection Act. In 
principle, the state and counties have no objection to complying with 
NEPA. As residents of a wonderful part of the world, we are strongly 
interested in preserving the public lands and heritage areas that 
surround us. The problem arises because BLM has advised the counties 
that it does not have manpower or financial resources to conduct the 
necessary analysis. Nor does it appear that the agency will have such 
resources any time soon. Thus, all prior discussions about potential 
for extending this road have come to an end. Passage of H.r. 4953 will 
transfer the obligation to complete necessary NEPA analysis prior to 
transferring jurisdiction to the Oregon Dept. of Transportation and 
relieve the BLM of that burden.
    A second problem that has stymied cooperation between the county 
and BLM is the current controversy surrounding BLM's ability to grant 
rights of way for roads that pre-date passage of the Federal Lands 
Policy and Management Act. Crook County originally raised with BLM the 
possibility of requesting a right-of-way designation under provisions 
of that law. However, the agency response was that pursuant to the 
direction of Secretary of Interior Babbitt, no grants of right of way 
were currently being processed. In addition, a backlog of unresolved 
requests for right of way grants currently being challenged in the 
courts further preclude action by the agency under this venue. At this 
time BLM is unable to estimate when it might begin processing FLPMA 
claims, and the counties have no assurance that such claims would be 
recognized in any case.
    Having seen this avenue foreclosed, the counties for the past 18 
months have attempted to work with BLM through an on-going resource 
management planning process to obtain right-of-way for a West Butte 
Road extension. While this process has had some success, it now appears 
likely that may not be a viable long-term solution as it suffers from 
that affliction of land-management agencies commonly known in the West 
as ``analysis paralysis'' or ``process gridlock.'' At this time, BLM 
officials can only say that the agency may be able to issue a record of 
decision in ``winter 2004,'' adding that any challenge to the record of 
decision will likely result in further delays in even considering the 
counties' request for right of way.
    In the meantime, Crook County has seen its unemployment rate soar 
to double-digit levels as a result of continued reductions in timber 
harvest on Federal lands. Mills and timber have been the mainstay of 
the Crook County local economy for 100 years. As a result of the loss 
of this industry, Crook County currently enjoys the dubious distinction 
of being one of three counties in Oregon with the least desirable 
statistics related to both unemployment and per capita income. 
Furthermore, additional non-timber employers have indicated that they, 
too, may be forced to leave if something is not done to improve the 
county's position as an economically viable community.
    Local leaders believe that one such enhancement would be the 
construction of West Butte Road, which would suddenly place Crook 
County at the crossroads of traffic traveling from the Portland metro 
area to southeastern parts of the state and nation. Such a road is also 
supported by other jurisdictions and transportation planning groups, 
including the cities of Bend, Redmond and Madras, Deschutes County, the 
Oregon Dept. of Transportation and the Central Oregon Area 
Transportation Commission. All these bodies see this road as a 
potential relief valve for over-congestion on highway 97. So confident 
are the communities of Central Oregon that this project is both 
necessary and likely that the counties have been cooperatively working 
to hard-surface the approximately 19 miles of road which passes through 
county jurisdiction, betting that eventually common sense must prevail 
and allow completion of the road through the remaining 11 miles which 
passes through BLM land.
    The reason the counties have settled on the West Butte Road as the 
most obvious solution to their problem is that with the exception of a 
few short segments of roadway which need to be further engineered to 
avoid grade problems, the West Butte Road has few drawbacks as a 
potential transportation route. It is an existing road, so it will not 
require further disruption of the public lands through which it passes. 
It follows no waterways and therefore is not an historic travel 
corridor for ancient people posing associated archeological challenges. 
The roadbed is largely on flat terrain through sagebrush steppe and 
poses few engineering problems. Finally, although it passes near the 
habitat of the threatened sage grouse, local BLM officials have advised 
the county that the only identified habitat for these birds is several 
miles to the east and west of the West Butte road itself.
    In fact, in recent testimony before a Senate subcommittee, BLM 
identified only concerns about construction of the West Butte Road. One 
dealt with off-highway vehicle crossings and the other with the afore-
mentioned sage grouse. Both of these concerns would be mitigated by 
state and county in the normal course of constructing any road.
    In the end, this bill is, of course, an economic-development 
project for Central Oregon. Crook County government and business 
leaders believe that the construction of an artery of the state highway 
system that passes through Prineville, the county seat of Crook County, 
will lead inevitably to additional business development and tourism. 
The county makes no apologies for desiring additional jobs for its 
residents, for we have been severely impacted by the devastation of our 
timber industry over the course of the past 10 years. In just over a 
decade, we have lost a total of five operating lumber mills, resulting 
job losses measured in the thousands.
    In response to this economic catastrophe, government officials and 
environmental groups have called on community leaders to diversify the 
local economy. But diversification cannot occur without providing 
additional tools needed to attract new industry. One such tool is an 
expansion of existing transportation routes to more squarely place this 
economically devastated community in the path of progress.
    The concept of transportation linkages as economic development is 
not new. As far back as 1815, Henry Clay, Speaker of this very House, 
introduced the idea as an integral concept of his visionary ``American 
System'' and the Eisenhower-era of freeway building assured economic 
health and vitality for hundreds of American communities.
    H.R. 4953 is a modest recognition of the Federal Government's role 
as a partner in ensuring the health, strength and prosperity of local 
economies and thus the health, strength and prosperity of our nation. 
It does not compete with more glamorous legislation such as homeland 
security concerns or accounting oversight reform, but to my 
constituents it may be the most important bill pending before this 
Congress.
    Too often, Washington is perceived outside the Beltway as simply 
the source of more rules, more restrictions and more problems. This 
legislation presents is an opportunity to show citizens in my part of 
the world that good things can and do come from government.
    I appreciate the sensitivity of Congressman Walden to the 
seriousness of this issue to my community, and I request your favorable 
consideration of H.r. 4953.

                               * * * * *

    Topical outline of comments and summary of recommendations 
contained in full statement of Scott R. Cooper, appearing before the 
National Parks, Recreation and Public Lands Subcommittee, July 16, 2002 
regarding H.R. 4953
    I. LBackground to Crook County and H.R. 4953
         a. LSize, population
         b. LPurpose of legislation
         c. LStatus of legislation
    II. LAlternatives to U.S. 26-20 connection
         a. LHighway 27
              i. LState's only unpaved highway
              ii. LEcological, environmental challenges
         b. LMillican R d.
              i. LExisting county road
              ii. LUnimproved status
         c. LHighway 97
              i. LExisting route
              ii. LExisting and increasing congestion
              iii. LNeed to backtrack 35 miles to utilize
         d. LWest Butte Rd.
              i. LMaintained, passable
              ii. LMost acceptable alternative
    III. LODOT study, identifying road as viable
    IV. LHistory of efforts to obtain right of way, barriers to success
         a. LLegislative authority for jurisdiction swap
         b. LCounty efforts at negotiation with BLM
              i. LNEPA as barrier, due to BLM's lack of resources
              ii. LFLPMA as barrier, due to Babbitt moratorium, court 
            backlog
              iii. LRMP as barrier, due to uncertainty as to conclusion 
            date
    V. LImpact of inability to proceed
         a. LStatistics, unemployment, per-capita income
         b. LThreats due to declining timber industry
    VI. LPotential of road project
         a. LCrossroads-status brings tourists, jobs to Crook County
         b. LRelieves congestion in Deschutes County
         c. LSpringboard for further economic-development
              i. LTransportation as an historical economic development 
            engine
         d. LProject as Federal/local partnership
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Cooper. A good job on the 
testimony and I appreciate all three of you being here.
    I will turn my attention toward Mrs. Christensen for any 
questions.
    Mrs. Christensen. I have just a few questions. One is for 
Ms. Masica. Could you explain in H.R. 3434 your understanding 
of the effect of section 3(d) of the bill dealing with the 
inholdings account that says, ``Historic site is deemed to be 
an inholding for the purposes of the inholding account of the 
land and water conservation fund.''
    Ms. Masica. In the understanding is that there is a special 
part of our land acquisition account for inholdings that were 
set up for property that was inside the park prior to 1960. I 
believe that was when that account was set up. Because this 
site was established in 1941 or 1949, it would be eligible for 
that part of the land acquisition account.
    Mrs. Christensen. It is eligible?
    Ms. Masica. Yes.
    Mrs. Christensen. Mr. Anderson, a couple of questions. You 
may have partially answered some of this in your testimony. It 
is our understanding that the BLM is involved in an 
administrative process that may result in a grant of the rights 
of way that the counties are seeking.
    That process is still ongoing?
    Mr. Anderson. Yes, ma'am.
    Mrs. Christensen. And could you compare the steps in that 
process to the steps contained in this legislation or 
thereabouts?
    Mr. Anderson. Well, the legislation would direct the 
Secretary to issue the right-of-way grant and subsequently 
there would have to be some NEPA analysis done. We have in 
place a planning system set forth under the direction of the 
Federal Land Policy and Management Act that was passed in 1976 
that instructed the Secretary of the Interior to set up a 
planning process which involved the public, our stakeholders.
    We have been working with the folks from Deschutes and 
Crook Counties. They have set up these Issue Teams and they 
have special interest groups within the issue teams to talk 
about and discuss the specific issues that I mentioned in my 
testimony, that of recreational use and wildlife concerns.
    I am not sure how far the county may go in ensuring the 
community has the same involvement that we do, although I don't 
have any reason to believe that they wouldn't.
    Mrs. Christensen. But the process that BLM has is a more 
complete process than in this legislation?
    Mr. Anderson. The legislation would certainly shorten the 
process.
    Mrs. Christensen. In particular, on NEPA, would the 
administrative process include the full compliance with NEPA 
and does the legislation contain such a requirement?
    Mr. Anderson. I'm not sure if the legislation requires the 
NEPA, but the county and State, if it is going to be a Federal 
aid highway, then they would have to do NEPA, the same as BLM.
    Mrs. Christensen. OK, so whatever the process, they would 
still have to go through that process.
    Mr. Anderson. Yes.
    Mrs. Christensen. If through the administrative process the 
counties are granted the right-of-way they are seeking, would 
they been required to pay fair market value for those rights of 
way and does the legislation include that requirement?
    Mr. Anderson. No, it does not. In terms of the 
administrative process to grant the right-of-way, there would 
be no cost to the county.
    Mrs. Christensen. Would you want me to yield?
    Mr. Walden. Would the gentle lady yield? My understanding 
is that the Federal Government would actually gain more land as 
a result as a result of this transfer and so therefore would 
actually benefit from it. It would be a net recipient of land 
out across eastern Oregon because this is a shorter route.
    Mrs. Christensen. OK, thank you, that answers my questions. 
Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    Mr. Walden?
    Mr. Walden. Thank you very much, Mr. Chairman. Mr. 
Anderson, how far backlogged is the Bureau of Land Management 
on NEPA analyses in Oregon?
    Mr. Anderson. I don't know.
    Mr. Walden. You are somewhat backlogged, though, right?
    Mr. Anderson. I am not sure of the status of where we are 
with different NEPA documents. As you know, we have a number of 
offices and they all have their own projects and tasks and 
actions that they are working on.
    For this particular field office, I am not sure what the 
status is, but they are actively working on the NEPA process 
right now.
    Mr. Walden. Mr. Anderson, should H.R. 4953 address the 
Administration's concerns over recreational use and the 
wildlife concerns, and I believe we have been working with your 
staff on that, would then the BLM be able to support the 
amended legislation?
    Mr. Anderson. I think we can do that, yes.
    Mr. Walden. Knowing the current conditions of both the 
County-owned Millican Road and the BLM's West Butte Road, do 
you think this is, in your opinion, from what you know, a fair 
exchange?
    Mr. Anderson. As far as I know. It is not an exchange per 
se, but a simple relinquishment of the RS2477. Is that what you 
are talking about?
    Mr. Walden. Yes.
    Mr. Anderson. Yes.
    Mr. Walden. And then, are you aware of any opposition to 
H.R. 4953 from any of the other surrounding counties?
    Mr. Anderson. No.
    Mr. Walden. I understand we now have a letter from 
Jefferson County supporting this as well. So, the surrounding 
counties all support this.
    Mr. Chairman, the concern I have is that if you want to do 
something to get efficiency in transportation in this part of 
my district, this is the way to do it. Right now, you route 
these trucks out 35 miles in a loop on the third most-traveled 
highway in the State of Oregon for truck traffic so that they 
can route back and go in the other direction. You kind of do 
one of these.
    This county has suffered enough. These people have suffered 
enough in terms of loss of jobs and more are threatened if we 
don't move forward. You know, we have been kind of talking 
about this for a long time. That is why I just think it is 
important to move forward.
    There are some technical issues from the original draft 
that we are working with BLM to correct. I think we can get 
there. It would just be efficient for fuel purposes, for jobs, 
transportation. The Federal Government is the net benefit of 
additional lands along much more sensitive areas than this 
route.
    Judge Cooper, do you have anything else you want to comment 
on in what you have heard here?
    Judge Cooper. I would just note, Congressman, that the 
issue of addressing the public concerns can easily be dealt 
with through the Committee report on the bill, so there is no 
need to exclude the public on that.
    Mr. Walden. Right. And in terms of the NEPA analysis, my 
understanding is that the Oregon Department of Transportation 
would have to do that.
    Judge Cooper. Before it could be designated a State highway 
and certainly for purposes of upgrading it and maintaining it, 
it would require State assistance. It would require a complete 
NEPA analysis.
    Mr. Walden. And from what you know, the State Department of 
Transportation is willing to undertake both of those efforts, 
both NEPA and declaration as State highway?
    Judge Cooper. The Oregon Transportation Commission, as well 
as the staff of the Oregon Department of Transportation fully 
support this bill.
    Mr. Walden. And are there other employers in Crook County 
that you are aware of that this would make a big difference to?
    Judge Cooper. This was make an enormous difference to the 
LaScheib Tire Company, which is look at whether it is able to 
retain its presence in the Prineville area because of the lack 
of transportation routes. It accounts for 15 percent of the 
workforce of Crook Country. Its departure would shoot us to 30 
percent unemployment if LaScheib left?
    This is a key issue about that. Why?
    Judge Cooper. This is a critical issue because they are so 
important as part of the workforce and because they are so 
important as part of the workforce and because they are serving 
an eight-state area out of Prineville and the need to be able 
to service them within the 10-hour drive time that is required 
by Federal law for drivers and get trucks to the outlying 
plants is critically important to their ability to operate.
    Mr. Walden. Mr. Chairman, I have a letter here from Phil 
Wick. Is this similar to the one that you put in the record, 
Mr. Chairman? OK.
    Phil Wick is President of LaScheib Tire Centers and he says 
in part in his letter, ``With the alternative route in place, 
LaScheib Tire Centers believes it could extend its reach to 
southeastern stores by one to 2 hours and relieve congestion on 
the Highway 97 corridor at the same time.''
    I think you can understand the importance of this. I 
greatly appreciate your willingness to schedule this hearing 
and work us and BLM and the county on the amendment that we 
hope to offer Thursday as a substitute.
    Mr. Radanovich. My pleasure. Do you need that submitted for 
the record?
    Mr. Walden. I believe Judge Cooper has already done that. 
That is one of the letters he submitted.
    I yield back.
    Mr. Radanovich. Thank you, Mr. Walden.
    Mr. Holt, any questions?
    Mr. Holt. Just briefly. Thank you, Mr. Chairman. I thank 
the witnesses. To follow on this point that we were just 
discussing, will there be a need, will there be a request for 
Federal funds? Let me ask this of Mr. Cooper. Will there be a 
need for Federal funds for road improvement in connection with 
this transfer.
    Judge Cooper. I do not believe, Mr. Holt, that that would 
be required, simply because we are the beneficiaries of the 
Payments to Counties legislation which was passed last year. We 
will receive those for the next 5 years. That should be 
sufficient for us to upgrade the road.
    Mr. Holt. For the National Park Service, for the Washington 
Birthplace which is H.R. 3449, do you know what plans there are 
for adding to the interpretive or physical presence there at 
the site and would any of that be precluded or actually, to put 
it positively, would any of that be permitted or enhanced by 
this acquisition?
    Ms. Masica. I don't know of any specific plans to enhance 
the interpretation. Certainly if the boundaries are expanded 
and then the property is acquired, it would be eligible for all 
the services that a part would normally be eligible for.
    Mr. Holt. OK. I thank the witnesses and I thank you, Mr. 
Chairman.
    Mr. Radanovich. Thank you, Mr. Holt.
    Are there any other questions from any of the panels?
    Ladies and gentlemen, thank you very much for coming to the 
Committee. If there are no other questions or comments of 
anything else, the hearing is adjourned. Thank you very much.
    [Whereupon, at 2:48 p.m., the Subcommittee was adjourned.]


</pre></body></html>
